                                    Statement for the Record

                                     Gregory H. Friedman
                                        Inspector General
                                   U.S. Department of Energy

                                        Provided for the

                      Subcommittee on Energy and Water Development
                             Committee on Appropriations
                                       U.S. Senate

                                          May 15, 2013


Madam Chairwoman and members of the Subcommittee, pursuant to your May 9, 2013, request,
I am providing information relating to today’s hearing on the Department of Energy’s Fiscal
Year (FY) 2014 budget. Specifically, you requested information on the most significant
management challenges facing the Department, as identified by the Office of Inspector General.


The Department of Energy is a multi-faceted agency responsible for executing some of the
Nation’s most complex and technologically advanced missions. These missions include cutting
edge work in basic and applied science, clean energy innovation, energy efficiency and
conservation, environmental cleanup, medical applications, nuclear weapons stewardship, and
efforts to enhance national security. To execute this diverse portfolio, the Department’s
workforce includes approximately 15,000 Federal employees and nearly 100,000 contractor
personnel. The Department’s physical asset base is currently valued at over $180 billion.


With this extensive mission as the driver, the Office of Inspector General annually identifies
what it considers to be the most significant management challenges facing the Department.
Based on the results of our body of work, these are the issues that we believe require priority
attention of the Department’s senior leadership. The current list of management challenges
includes:


   •   Contract and Financial Assistance Award Management
   •   Cyber Security
   •   Energy Supply
   •   Environmental Cleanup
   •   Human Capital Management
   •   Nuclear Waste Disposal
   •   Safeguards and Security
   •   Stockpile Stewardship


We also develop a “watch list” consisting of issues that warrant special attention by Department
officials. The watch list includes Infrastructure Modernization, the Loan Guarantee Program,
and Worker and Community Safety.


Additionally, in our view, current Federal budgetary concerns dictate that making operations
more efficient and less costly is the preeminent challenge facing the Department. As a result,
beginning in FY 2012, we identified Operational Efficiency and Cost Savings as a leading
challenge facing the Department. In this context, we developed a series of operational efficiency
and cost reduction initiatives for management’s consideration. These topics include:


   •   Apply a strategic planning discipline to the Department’s entire science and technology
       portfolio, which, in essence, extends the reach of the Quadrennial Technology Review
       published in September 2011;
   •   Eliminate National Nuclear Security Administration functions that duplicate or are
       redundant to existing Department of Energy functions;
   •   Establish an independent commission (patterned after the Department of Defense Base
       Realignment and Closure Commission) to analyze the Department’s laboratory and
       technology complex, specifically examining sizing issues and whether facility
       consolidation options are viable;
   •   Reprioritize the Department’s environmental remediation efforts; and
   •   Reevaluate the current structure of the Department’s physical security apparatus.




                                                2
Information related to these cost savings proposals is available at:
http://energy.gov/sites/prod/files/IG-0858.pdf and http://energy.gov/sites/prod/files/IG-
0874_1.pdf.


In further response to your inquiry, I want to inform you that, at this time, we are in the process
of planning our audit strategy for FY 2014. The Department’s FY 2014 appropriation, including
funding trends, programmatic priorities, and potential budgetary reductions, will be a primary
reference point in our planning efforts. We rely on a risk-based selection methodology in this
process. Thus, the management challenges previously discussed will also be an integral
component in developing our work plan for FY 2014.


Finally, for your information, I testified on the Department of Energy’s management challenges
on March 14, 2013, at a hearing before the U.S. House of Representatives’ Committee on
Science, Space, and Technology, Subcommittee on Oversight. That testimony may be of interest
to you as it relates to these proceedings. My previous testimony is available at:
http://energy.gov/sites/prod/files/Testimony%20of%20Gregory%20H%20Friedman%20March%
2014%202013.pdf.


Madam Chairwoman, this concludes my statement. I hope this information is helpful to you and
the Subcommittee.




                                                 3
